            Audit Report



 Effects of the Senior Attorney
Adjudicator Program on Hearing
           Workloads




      A-12-13-23002 | June 2013
MEMORANDUM


Date:      June 28, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)

           The attached final report presents the results of our audit. Our objectives were to determine the
           effect the Senior Attorney Adjudicator Program has had on productivity and the timeliness of
           hearing-level workloads.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Effects of the Senior Attorney Adjudicator Program on
Hearing Workloads
A-12-13-23002
June 2013                                                                 Office of Audit Report Summary

Objective                                 Our Findings

To determine the effect the Senior        The SAA Program has contributed to both an increase in
Attorney Adjudicator (SAA) Program        adjudicative capacity and improved average processing time.
has had on productivity and the           However, the number of SAA OTRs peaked in FY 2010, and the
timeliness of hearing-level workloads.    decline continued through the first 5 months of FY 2013. Overall,
                                          SAA and ALJ OTRs have been decreasing since FY 2008,
Background                                consistent with ODAR management’s predictions. In addition, in
                                          an FY 2012 quality review, the Office of Quality Performance
As part of the Social Security            noticed a significant drop in its decisional agreement rate on SAA
Administration’s (SSA) appellate          OTRs, though the Agency did not have sufficient data to determine
process, administrative law judges        whether the issue was specific to SAAs or more broadly related to
(ALJ) and SAAs screen claimants’          OTRs. Finally, hearing office managers were interested in
files to determine whether they can       additional training and greater duties for their SAAs. Given the
issue an on-the-record (OTR) decision.    expected decline in SAA OTRs, which was the primary purpose of
OTR decisions do not require a hearing    the SAA Program, SSA should decide before any future extension
because the documentary evidence          of the program, or expansion of the SAA corps, whether the
alone supports a fully favorable          program needs to be modified to address future hearing office
decision.                                 workload needs.

SSA implemented the SAA Program in        Our Recommendations
November 2007 to issue high quality,
fully favorable OTR decisions while       1. Evaluate the benefits of conducting focused quality reviews on
maintaining the current level of ALJ         ALJ and SAA OTR decisions using a consistent set of criteria
decision writing support. By having          so results are comparable. In this way, common OTR issues
SAAs issue fully favorable OTR               can be identified and appropriate training developed.
decisions, SSA would be able to
conserve ALJ resources for the more       2. Ensure additional training is available to SAAs in those areas
complex cases and cases that require a       identified in our report, including mentoring for attorneys and
hearing. SSA originally included a           paralegal specialists, as appropriate.
provision to end the program on
August 10, 2009, but it extended the      3. Consider expanding SAAs’ duties to assist hearing offices with
Program twice through August 2013.           case processing, such as adjudicating non-disability cases and
As of the end of our audit period, SSA       dismissals.
had not stated its intent to extend the
program for another 2 years.              4. Align existing SAA positions with predicted workloads and
                                             related duties before making additional promotions to the SAA
                                             position.

                                          The Agency agreed with the recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SAA Dispositions and the Effect on Hearing Workloads ..........................................................2
           Trends in SAA OTR Decisions............................................................................................2
           Trends in Total OTR Decisions ...........................................................................................3
           Effect on Hearings Timeliness .............................................................................................5
     OQP Quality Review of SAA Decisions ...................................................................................7
     SAA Training and Additional Duties ........................................................................................9
           SAA Training Needs ............................................................................................................9
           SAA Duties in the Hearing Office .....................................................................................10
Conclusions ....................................................................................................................................11
Recommendations ..........................................................................................................................11
Agency Comments .........................................................................................................................12
Appendix A – Senior Attorney Adjudicator Duties ................................................................... A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Hearing Office Selection Criteria ....................................................................... C-1
Appendix D – Trends in Regional and Hearing Office Senior Attorney Adjudicators On-the-
           Record Rates .......................................................................................................... D-1
Appendix E – Questionnaire to Selected Hearing Offices ..........................................................E-1
Appendix F – Agency Comments ............................................................................................... F-1
Appendix G – Major Contributors.............................................................................................. G-1




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)
ABBREVIATIONS
AC                   Appeals Council

ALJ                  Administrative Law Judge

APT                  Average Processing Time

CAR                  Caseload Analysis Report

CPMS                 Case Processing and Management System

DDS                  Disability Determination Services

FY                   Fiscal Year

HOD                  Hearing Office Director

ODAR                 Office of Disability Adjudication and Review

OIG                  Office of the Inspector General

OPM                  Office of Personnel Management

OQP                  Office of Quality Performance

OTR                  On-the-Record

POMS                 Program Operations Manual System

POR                  Probability of Reversal

SAA                  Senior Attorney Adjudicator

SSA                  Social Security Administration

VSU                  Virtual Screening Unit




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)
OBJECTIVE
Our objective was to determine the effect the Senior Attorney Adjudicator (SAA) Program has
had on productivity and the timeliness of hearing level workloads.

BACKGROUND
As part of the Social Security Administration’s (SSA) administrative adjudication system,
administrative law judges (ALJ) and SAAs at locations throughout the United States issue
decisions. SAAs can only issue an on-the-record (OTR) decision, which is a decision where no
hearing was necessary because the documentary evidence alone supported a fully favorable
decision.

SSA implemented the SAA Program in November 2007 to issue high-quality, fully favorable
OTR decisions while maintaining the current level of ALJ decision writing support. 1 Having
SAAs issue fully favorable OTR decisions allows SSA to conserve ALJ resources for cases that
are more complex or require a hearing. SSA originally included a provision to end the SAA
Program on August 10, 2009, but it extended the program twice through August 2013. As of the
end of our audit period, SSA had not stated its intent to extend the program for 2 more years.

SAAs’ additional adjudicatory capacity is especially important when the Agency is struggling to
reduce its pending hearings backlog. In her March 14, 2013 testimony, 2 SSA’s Acting
Commissioner stated the Agency still suffers from a shortage of ALJs. 3

          While we have hired over 850 new ALJs since FY 2007, historically high ALJ
          attrition, and dramatic workload growth leaves us short on adjudicatory capacity. The
          Office of Personnel Management’s ALJ register is virtually exhausted and we will end
          FY 2013 far short of our hiring target. . .we will not be able to make further progress
          on reducing our backlog until we get more ALJs. Hearing requests continue to come
          in at high levels in FY 2013.




1
    See Appendix A for more information on SAA duties.
2
 Addressing Social Security Administration’s Management Challenges in a Fiscally Constrained Environment:
Hearing Before the H. Committee on Appropriations, Subcommittee on Labor, Health, and Human Services,
Education and Related Agencies, 113th Cong. (March 14, 2013) (statement of Carolyn W. Colvin, Acting
Commissioner of the Social Security Administration).
3
 In our February 2013 report, Interagency Agreements with the Office of Personnel Management for Administrative
Law Judge Services (A-05-12-22144), we discussed SSA’s concerns with the Office of Personnel and
Management’s (OPM) ALJ register and related processes to select new ALJs. In the report, we noted that the Office
of Disability Adjudication and Review (ODAR) was seeking to hire 125 ALJs in September 2012, but it only hired
46 ALJs from OPM’s ALJ register. According to SSA, it was unable to identify additional ALJ candidates because
of quality issues with the register.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                         1
As part of our methodology, we interviewed managers, ALJs, and staff from ODAR
headquarters. We also discussed quality reviews of the SAA workload with managers in the
Offices of Quality Performance (OQP) and Appellate Operations. We analyzed national and
regional statistics to determine trends in SAA decisions. We interviewed managers, ALJs,
SAAs, and staff at three hearing offices. We also sent electronic questionnaires to 20 hearing
offices to learn more about their experiences with SAA duties. 4

RESULTS OF REVIEW
The SAA Program has contributed to hearing office productivity and timeliness since its
introduction in FY 2008, though SAA OTR decisions peaked in FY 2010. SAA OTR decisions
decreased by 31 percent in FY 2012 and continued dropping through the first 5 months of FY
2013. OTR decisions as a percent of total dispositions, whether decided by SAAs or ALJs, also
decreased over the same 5-year period, from about 17 percent in FY 2008 to about 10 percent in
FY 2012. An OQP quality review of FY 2012 SAA OTR decisions found a significant decrease
in the decisional agreement rate from prior years. However, the Agency has not conducted
similar quality reviews focused on ALJ OTR decisions, so we could not determine whether the
quality issues related to SAAs specifically or OTRs in general. Finally, hearing office managers
stated their SAAs needed additional training related to their current duties, including mentoring,
writing, and screening. Hearing office managers also identified areas where SAAs could assist
hearing offices as the OTR workload decreases, such as processing non-disability cases and
dismissals.

SAA Dispositions and the Effect on Hearing Workloads
We assessed the contribution of SAA OTR decisions, as well as OTR decisions in general, to the
overall hearings workload at ODAR since FY 2008. In addition, we reviewed the impact of
OTR decisions on hearing office timeliness during this same period.

Trends in SAA OTR Decisions
SAAs issued about 206,000 OTR decisions from FYs 2008 through 2012 (see Table 1), about
6 percent of the approximately 3.6 million dispositions 5 issued during this period. The number
of SAA OTR decisions increased steadily during the Program’s first 3 years, peaking at
approximately 54,200 OTR decisions in FY 2010, and declined in subsequent years. 6 The


4
    See Appendix B for our scope and methodology and Appendix C for our hearing office selection criteria.
5
    Dispositions are the sum of fully favorable, partially favorable, and unfavorable decisions, as well as dismissals.
6
  Besides implementing the SAA program, ODAR began an informal remand initiative designed to increase
ODAR's adjudicatory capacity and reduce paper case backlogs by having DDS reexamine certain cases based on
scoring profiles established by the OQP. SSA commented that the informal remand initiative might have removed a
significant number of allowances from the hearing offices. We examined the informal remand workload and found
that even if the informal remands had been processed as OTR decisions during FYs 2008 to 2012, total OTRs both
numerically and as a percent of dispositions still would have decreased in recent years.



Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                                   2
number of SAA OTR decisions dropped about 31 percent to approximately 37,400 OTRs in
FY 2012. SAA OTR decisions continued decreasing in 2013 to about 8,100 in the first 5 months
of FY 2013, approximately 9,000 fewer OTR decisions than were issued during the same period
in FY 2012. 7

                               Table 1: Trends in SAA OTR Dispositions
                                          (FYs 2008 to 2012)
                                                                                  SAA OTR
                                       Total                SAA OTR            Dispositions as a
                   FY
                                    Dispositions1          Dispositions2       Percent of Total
                                                                                 Dispositions
                  2008                 575,380                24,577                 4.3%
                  2009                 660,842                36,368                 5.5%
                  2010                 737,616                54,186                 7.3%
                  2011                 793,563                53,258                 6.7%
                  2012                 820,484                37,426                 4.6%
                  Total               3,587,885               205,815                5.7%
         Notes:
         1. Information taken from SSA’s Case Processing and Management System (CPMS) Caseload Analysis
             Report.
         2. Information taken from SSA’s CPMS closed claims database.

Trends in Total OTR Decisions
OTR dispositions as a percent of total dispositions, whether decided by SAAs or ALJs, also
decreased over the same 5-year period, from 17 percent in FY 2008 to 10 percent in FY 2012
(see Table 2). Moreover, the ALJ share of the OTR decisions declined during the 5-year period
(see Figure 1), consistent with the SAAs’ new adjudicative role and fulfilling the goal of
conserving ALJ resources for the more complex cases and cases that require a hearing. In
FY 2012, SAAs processed about 46 percent of all OTR decisions. SAAs obtain their OTR
decisions through screening but do not handle cases assigned to an ALJ’s docket. Since ALJs
identify some OTR decisions as they work through their dockets, it is unlikely that SAAs would
process 100 percent of the OTR decisions.




7
    See Appendix D for more information on SSA OTR processing trends.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                   3
                                                        Table 2: Trend in Total OTR Dispositions
                                                                   (FYs 2008 to 2012)
                                                                                                          OTR Dispositions
                                                             Total              OTR Dispositions
                                   Fiscal Year                                                             as a Percent of
                                                          Dispositions          (SAAs and ALJs)
                                                                                                          Total Dispositions
                                        2008                575,380                   98,539                     17.1%
                                        2009                660,842                  108,586                     16.4%
                                        2010                737,616                  115,599                     15.7%
                                        2011                793,563                  109,652                     13.8%
                                        2012                820,484                   80,939                      9.9%
                                        Total              3,587,885                 513,315                     14.3%



                                                         Figure 1: 5-Year Trend in OTR Decisions
                                                                 (FYs 2008 Through 2012)

                      125000
                                                                       108,586          115,599
                                                                                                            109,652
                                                       98,539
                      100000
                                                                                                                      80,939
      Number of OTR Decisions




                                                       73,962          72,218
                                75000
                                                                                        61,413
                                                                                                             56,394     43,513
                                50000
                                                                                   54,186          53,258

                                25000                           36,368                                                37,426
                                                24,577

                                   0
                                                2008             2009               2010             2011             2012
                                                                                 Fiscal Year
                                                                       SAAs         ALJs          Total




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                                          4
In our 2011 audit, 8 ODAR explained that it expected OTR decisions as a percent of the total
workload to decrease as it continued processing the oldest cases in its backlog. 9 ODAR
managers noted that as the Agency continued working down the backlog of aged cases and the
average processing time (APT) approached the goal of 270 days, 10 SAAs would be screening
more cases recently decided by the disability determination services (DDS). 11 In such cases, the
hearing offices are more likely to be viewing the same evidence provided to the DDS since,
unlike older cases, less time will have elapsed during which a medical condition may have
worsened. As a result, while ODAR managers expected the SAA screening process to continue
identifying claims that could be decided as OTR decisions, they also expected such cases to be
less prevalent.

Effect on Hearings Timeliness
SAA OTR decisions have contributed to a lower national APT for ODAR dispositions since
FY 2008. 12 ODAR’s national APT was 514 days in FY 2008, but it dropped to 353 days in
FY 2012. While both SAA and ALJ OTR decisions lowered overall APT, SAA OTR decisions
have taken less time to process than ALJ OTR decisions (see Figure 2) or an average of 121 days
in FY 2012 versus 259 days for an ALJ OTR. National APT, as well as APT specific to SAA
and ALJ OTR workloads, has remained steady over the last 2 FYs.




8
    SSA Office of the Inspector General (OIG), Senior Attorney Adjudicator Program (A-12-10-11018), July 2011.
9
 As we noted in our September 2009 report, Aged Claims at the Hearing Level, (A-12-08-18071), ODAR began its
Aged Case initiative in FY 2007, which helped reduce the number of aged cases in its backlog. ODAR began
FY 2013 with 209,732 requests for hearing pending that would be 675 or more days old by the end of FY 2013. As
of February 22, 2013, ODAR reported 66,277 such cases were still pending.
10
     We discuss APT in the next section.
11
  DDSs in each State or other responsible jurisdiction perform determinations under both Disability Insurance and
Supplemental Security Income programs. Such determinations must be performed in accordance with Federal law
and underlying regulations. In carrying out its obligation, each DDS is responsible for determining claimants’
disabilities and ensuring adequate evidence is available to support its determinations.
12
     National APT is a cumulative annual rate that includes the processing time for ALJ and SAA dispositions.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                             5
                       Figure 2: 5-Year Trend in Average Processing Time
                                     for ODAR Dispositions


           550
           500
           450
           400
           350
           300
    Days




                                                                                        National APT
           250                                                                          ALJ OTR APT
           200
                                                                                        SAA OTR APT
           150
           100
            50
             0
                  2008         2009         2010          2011         2012
                                         Fiscal Year


In FY 2012, SAAs decided about 19,000 OTRs (50 percent) in 100 days or less (see Figure 3).
About 17 percent of the SAA OTRs were over 200 days old when the OTR was issued.

                     Figure 3: FY 2012 SAA OTR Processing Times per Case
                17.2%
           6,427 SAA OTRs                                      21.1%
                                                          7,913 SAA OTRs

                                                                               0-50 days (21.1%)
                                                                               51-100 days (29.3%)
                                                                               101-200 days (32.4%)
                                                                               200+ days (17.2%)
          32.4 %                                               29.3%
     12,122 SAA OTRs                                     10,964 SAA OTRs



                     Note: The slices may not add to 100 percent due to rounding.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                6
OTR decisions are processed more timely for a number of reasons. 13 First, under the SAA
Program, many OTRs are identified when the case is screened 14 as it is being entered into the
hearing office master docket system, and action can be taken immediately. Second, OTR
decisions do not require a hearing, so the efforts and time spent preparing the case and
scheduling the hearing can be avoided. Finally, the processing time related to SAA OTR
decisions is often less than that of the ALJs because ALJs often encounter OTR cases within
their docket as they work through the cases on a First-in, First-out basis. 15 A potential OTR case
may be pending longer in the ALJ’s docket than if it had been identified as an OTR case during
the screening process.

OQP Quality Review of SAA Decisions
OQP 16 completed an in-depth post-effectuation quality review assessing the accuracy of SAA
decisions from the first 6 months of FY 2012 and found a significant decrease in the agreement
rate from the prior year (see Table 3). 17 The agreement rate for SAA cases dropped from
96 percent in FY 2011 to 81 percent over this period. OQP reviewed a sample of 432 fully
favorable SAA decisions from the first 6 months of FY 2012 and disagreed with 84 of the cases,
stating the decisions lacked sufficient documentation to substantiate a fully favorable decision or
the evidence was conflicting and needed clarification. The OQP report stated, “When we cite a
disagreement, we are indicating that the SAA allowance is not supported by preponderance of
the evidence, and at a minimum, a hearing is required. Our disagreement with the SAA
allowance does not imply that the decision should have been a denial.” OQP found no difference
in OTR accuracy when comparing SAA’s working with the Virtual Screening Unit (VSU) and
those not participating with the VSU. 18




13
 Before this SAA Program, ALJs made all OTR decisions. In this review, we did not determine whether fewer
OTR cases in an ALJ’s mix of cases led to longer processing time on the remaining cases.
14
  In August 2009, ODAR issued guidance recommending OTR screening focus on (1) claimants age 50 and older
and (2) targeted impairment codes.
15
     SAAs also use First-in, First-out in their screening of incoming cases.
16
   OQP conducts quality reviews, studies, and statistical analyses of SSA programs, business processes, and service
delivery. They assess the accuracy of programmatic payments and transactions, and recommend corrective changes
in programs, policies, procedures, or legislation.
17
     See SSA OQP, Review of Senior Attorney Advisor Disability Decisions: Midyear 2012, December 2012
18
  The VSU consists of up to 100 SAAs from around the country who work from their home offices and review
screened cases from other parts of the country, particularly cases from backlogged hearing offices. We discuss the
VSU workload in more detail in Appendix D.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                              7
                          Table 3: OQP SAA OTR Decisional Agreement Rates
                                         (FYs 2010 to 2012)
                                                            Number of Cases                Agreement
                                FY                             Sampled                       Rate
                            2010                                    987                        94%
                            2011                                    960                        96%
                 October 2011 to March 2012                         432                        81%

ODAR’s Appeals Council (AC) also identified accuracy issues with the SAA decisions in its
quality reviews. In our discussions with AC managers, we learned that while the AC had not
conducted in-depth studies of SAA cases, in its random sample analysis of a small number of
SAA OTR decisions, the AC agreed with 75 percent of the decisions in FY 2011 and 67 percent
in FY 2012. The AC cautioned that the small samples did not allow it to make definitive
statements on the quality of SAA decisions during these 2 years. 19

Part of the difference in agreement rates between OQP and the AC quality reviews relate to
different methodologies, including what counts as an “error.” For instance, an OQP director
explained that her team used a “preponderance of the evidence” standard for its reviews, whereas
the AC used a “substantial evidence” standard that also counted issues related to onset dates, 20
abuse of discretion, and errors of law as “errors.” Under OQP’s SAA OTR review methodology,
while the reviewers noted onset date issues separately in the report, they did not use them in the
final agreement rate. 21

OQP also used a “probability of reversal” (POR) rule 22 when reviewing the SAA cases, which it
did not use for the ALJ cases. Under this rule, OQP will not return a reviewed case to the SAA


19
  Regulations limited the way the AC collected cases for own-motion review. The AC implemented a random
sample provision of the regulation and not a selective sample process. See SSA, Emergency Message 10090—Case
Processing Information on the Pre-effectuated Cases Sampled by the New ODAR Appeals Council Quality Review
Branch—One-Time-Only Instructions (December 20, 2010): The AC considers under own-motion review a random
sample of unappealed favorable or partially favorable decisions in Certified Electronic Folder cases. The cases are
limited to disability cases.
20
     The onset date refers to when a claimant was determined to be unable to work.
21
   The OQP report assessing the accuracy of SAA decisions from the first 6 months of FY 2012 identified 29 “onset
issue only” cases.
22
  SSA POMS, GN 0440.110—Defining the Probability of Reversal (POR) Rule and Classifying Documentation
Deficiencies (May 4, 2011): The POR rule is an administrative criterion used by the Federal quality reviewer to
decide whether to return medical or vocational documentation deficiencies to the adjudicating component for
correction. The purpose is to minimize unnecessary use of resources for development of medical or vocational
evidence. Under the POR rule, (1) if a disability determination is not fully documented as required by SSA
disability program policy, (2) but the evidence on file is sufficient for the Federal quality reviewer to judge that the
missing evidence is unlikely to change the disability determination, or the length of the period of disability, the
Federal quality reviewer classifies the discrepancy as a non-returnable “technical corrective action.”



Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                                    8
as a disagreement if the evidentiary deficiency in the file is unlikely to change the disability
decision or period of disability. Cases reviewed under this rule are more likely to have a higher
agreement rate.

When we asked OQP and AC managers whether they maintained similar agreement rates for
OTRs issued by ALJs, we learned that neither component performed OTR-specific quality
reviews on ALJ OTRs. As a result, we were unable to determine whether ALJ OTR decisions
had a higher agreement rate. That said, we did see some anecdotal evidence of high
disagreement rates related to ALJ OTRs reviewed as part of broader studies. 23

In our July 2011 report on the SAA Program, 24 we noted that the Agency discontinued the
previous SAA Program that operated from 1995 to 2000 because of a number of issues,
including concerns about decisional accuracy. However, we believe it would be more helpful for
Agency decision makers to learn more about the overall accuracy of OTRs, whether conducted
by an ALJ or an SAA, before making any conclusions on the OQP and AC findings.

SAA Training and Additional Duties
While we discussed a number of issues in our visits and questionnaires, 25 we focused on hearing
office director (HOD) responses related to SSA training and duties.

SAA Training Needs
In our December 2012 audit that examined the training of group supervisors, 26 we learned that
SSA did not have a national training program for SAAs. However, many SAAs had received
1 week of training in a national VSU program on how to screen cases and adjudicate fully
favorable OTR decisions. 27 SAAs who are not actively adjudicating OTR cases, or did not
volunteer to serve on a VSU detail, can also take the VSU training. The curriculum also
involves the analysis and development of the legal issues in the disability claim, review of case
law, circuit and district court cases, and other disability case screening procedures.




23
  In the FY 2010 ALJ quality report, OQP reviewers agreed with 65 of the 84 OTR allowances (77 percent) among
the 722 allowances reviewed. See SSA OQP, Disability Case Review of Administrative Law Judge Hearing
Decisions: Fiscal Year 2010, January 2012.
24
     SSA OIG, Senior Attorney Adjudicator Program (A-12-10-11018), July 2011.
25
     See Appendix C for further discussion of our hearing office selection criteria.
26
     SSA OIG, Training and Development of Hearing Office Group Supervisors (A-12-12-11240), December 2012.
27
   According to ODAR, through February 2013, 498 of ODAR’s nearly 700 SAAs attended the 1-week VSU
training program.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                         9
When we asked the HODs in 20 hearing offices 28 what training they needed for their SAAs,
11 stated they would like their SAAs to get more training in mentoring less experienced
attorneys and paralegal analysts. Another nine HODs thought their SAAs needed additional
decision writing training for the more difficult decisions, while five thought additional screening
training would be useful (see Table 4). Only two HODs stated additional training in adjudication
was needed.

                         Table 4: Additional SAA Training Requested by HODs
                                   (Based on 20 HOD Respondents)
                                                           Number of Respondents
                                                                                          Percent of Total
                      Training Areas                        Requesting Additional
                                                                                           Respondents
                                                                 Training1
       Mentoring Less Experienced Attorneys
                                                                         11                     55%
       and Paralegal Analysts
       Writing More Difficult Decisions                                  9                      45%
       Screening Cases                                                   5                      25%
       Adjudicating OTR Decisions                                        2                      10%
       No Additional Training Is Necessary                               6                      30%
     Note 1: Respondents could choose more than one category.

OQP informed us that it shared its SAA OTR errors with ODAR each month during the first 6
months of FY 2012. OQP issued its quality review of FY 2012 SAA OTRs in December 2012,
after we conducted our hearing office questionnaire. OQP also noted that it shared the SAA
OTR quality report findings with SAAs at a February 2013 VSU nation-wide session and
ensured VSU trainers used the results of the information in formal training sessions. Moreover,
ODAR managers informed us that the Office of the Chief ALJ shared OQP’s findings with its
regional offices so that this information could be provided to the SAAs.

SAA Duties in the Hearing Office
Given the decreasing OTR workload, we asked the HODs to identify additional duties their
SAAs would be able to perform to assist with ALJ workloads. Among the 20 HODs,
13 responded that they would like their SAAs to issue decisions for non-disability cases, 29 and
11 stated they would like their SAAs to adjudicate dismissals (see Table 5). Some other ideas




28
     See Appendix E for further analysis of our questionnaire results.
29
     Non-disability workloads could include appeals related to retirement claims and SSA overpayment assessments.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                             10
included SAAs assisting with (1) res judicata decisions, 30 (2) pre-hearing conferences, and
(3) review of “good-cause for untimely filing.”

                          Table 5: Additional Adjudication Duties for SAAs
                                                            Number of Respondents
                                                                                             Percent of Total
                    Additional Duties                        Requesting Additional            Respondents
                                                                    Duties1
     Issue Decisions on Non-Disability
                                                                         13                         65%
     Workloads
     Issuing Dismissals                                                  11                         55%
     Other                                                                6                         30%
     Note 1: Respondents could choose more than one category


CONCLUSIONS
The SAA Program has contributed to both an increase in adjudicative capacity and improved
APT. However, the number of SAA OTRs peaked in FY 2010 and the decline continued
through the first 5 months of FY 2013. Overall, SAA and ALJ OTRs have been decreasing since
FY 2008, consistent with ODAR management’s predictions. In addition, in an FY 2012 review,
OQP noticed a significant drop in its decisional agreement rate on SAA OTRs, though the
Agency did not have sufficient data to determine whether the issue is specific to SAAs or more
broadly related to OTRs. Finally, hearing office managers were interested in additional training
and greater duties for their SAAs. Given the expected decline in SAA OTRs, which was the
primary purpose of the SAA Program, SSA should decide before any future extension of the
program, or expansion of the SAA corps, whether the program needs to be modified to address
future hearing office workload needs.

RECOMMENDATIONS
To improve the SAA program, we recommend SSA:

1. Evaluate the benefits of conducting focused quality reviews on ALJ and SAA OTR decisions
   using a consistent set of criteria so results are comparable. In this way, common OTR issues
   can be identified and appropriate training developed.

2. Ensure additional training is available to SAAs in those areas identified in our report,
   including mentoring for attorneys and paralegal specialists, as appropriate.




30
  In civil law, res judicata is a rule that provides once an issue is decided it does not need to be decided again,
provided the same person, same issue, and same facts are involved. Res judicata applies to adjudication involving
post-adjudicative issues as well as issues involved with the filing of subsequent applications.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                               11
3. Consider expanding SAAs’ duties to assist hearing offices with case processing, such as
   adjudicating non-disability cases and dismissals.

4. Align existing SAA positions with predicted workloads and related duties before making
   additional promotions to the SAA position.

AGENCY COMMENTS
The Agency agreed with our recommendations (see Appendix F).




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)      12
                                       APPENDICES




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)
Appendix A – SENIOR ATTORNEY ADJUDICATOR DUTIES
The senior attorney adjudicator’s (SAA) primary duties are as follows.

•   Render professional legal advice and assistance to the administrative law judges (ALJ) in
    pre-hearing development and preparation of cases for hearing, post-hearing development, and
    other post-hearing actions.

•   Analyze, research, and develop cases that are reviewed for ALJ decisions.

•   Write comprehensive decisions in the most legally complex cases for ALJ signatures after an
    ALJ hearing. ALJs instruct SAAs on the content needed in each decision. SAAs are
    responsible for providing an adequate draft decision that (1) is factually correct; (2) complies
    with the drafting instructions; (3) is prepared in a timely manner; (4) is persuasive;
    (5) properly analyzes the legal issue of the claim; (6) has proper spelling, punctuation, and
    grammar; and (7) includes an adequate rationale for each finding. SAAs also write dismissal
    orders for Hearing Office Chief ALJs.

•   Screen cases and adjudicate fully favorable on-the-record (OTR) decisions. SAAs may
    request additional evidence and prior files or call claimant representatives and request
    updated medical evidence. SAAs cannot request that case technicians pull the claim before
    examining the case for an OTR decision. SAAs prepare the fully favorable decisions and
    have the authority to sign the decision. When a favorable decision cannot be issued, SAAs
    return the case with a summary sheet explaining why the claims could not be paid OTR to
    the hearing office for normal processing.

•   Mentor less experienced attorneys.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)          A-1
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable laws and Social Security Administration (SSA) policies and procedures,
    including the Office of Disability Adjudication and Review’s (ODAR) Hearings, Appeals
    and Litigation Law Manual.

•   Reviewed prior reports and studies conducted by SSA’s Office of the Inspector General and
    Office of Quality Performance (OQP).

•   Analyzed Case Processing and Management System (CPMS) closed cases for Fiscal Years
    (FY) 2008 to 2012 to identify OTR decisions issued by SAAs and ALJs, as well as CPMS
    Caseload Analysis Reports (CAR). We also used the CPMS CAR to identify the first
    5 months of SAA OTR decisions in FY 2013.

•   Interviewed managers and staff at ODAR’s headquarters to discuss the costs and benefits of
    the SAA initiative as well as plans for the program.

•   Interviewed OQP and Appeals Council managers to learn more about their process for
    determining quality of SAA decisions.

•   Interviewed hearing office managers at hearing offices in Richmond, Virginia; Charleston,
    West Virginia; and Little Rock, Arkansas, to discuss SAA productivity trends and learn
    about other factors that may affect ALJ and SAA OTR workloads.

•   Sent a questionnaire to 20 hearing office directors to identify processing trends, SAA training
    needs, and other SAA duties (see Appendix C for more information about our hearing office
    selection criteria).

•   Discussed our findings with ODAR staff and management.

We found that the CPMS data were sufficiently reliable to meet our objective. The entity
audited was the Office of the Deputy Commissioner for Disability Adjudication and Review.
We conducted this performance audit from July 2012 through March 2013 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
conduct the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)         B-1
Appendix C – HEARING OFFICE SELECTION CRITERIA
Using the Case Processing and Management System (CPMS) Fiscal Year (FY) 2011 closed
claims database, we categorized all the Office of Disability Adjudication and Review’s (ODAR)
hearing offices by administrative law judge (ALJ) and senior attorney adjudicator (SAA) on-the-
record (OTR) decision ratios.

We visited three hearing offices where we interviewed managers, ALJs, SAAs, and staff to learn
more about SAAs’ roles and responsibilities. We visited the Richmond, Virginia, Hearing Office
where SAAs issued 79 percent of the OTR decisions in FY 2011. We also visited two other
hearing offices where SAAs issued a smaller percentage of each hearing office’s OTRs—
Charleston, West Virginia, where SAAs issued 11 percent of the OTRs, and Little Rock,
Arkansas, where SAAs issued 30 percent of the OTRs.

We sent an electronic questionnaire to two hearing office directors (HOD) in each of ODAR’s
10 regions, focusing on 1 office with a high percent of SAA OTRs (see Table C–1 ) and 1 office
with a high percent of ALJ OTRs (see Table C–2).

           Table C–1: Hearing Offices with High SAA OTR Rates in Each Region
                                 (FY 2011 CPMS Data)
                         Region                        Hearing Office
                   Boston                               Springfield, Massachusetts
                   New York                                     Ponce, Puerto Rico
                   Philadelphia                         Philadelphia, Pennsylvania
                   Atlanta                            Atlanta (downtown), Georgia
                   Chicago                                      Lansing, Michigan
                   Dallas                                          Houston, Texas
                   Kansas City                             West Des Moines, Iowa
                   Denver                                        Denver, Colorado
                   San Francisco                             San Rafael, California
                   Seattle                                   Spokane, Washington




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)     C-1
           Table C–2: Hearing Offices with High ALJ OTR Rates in Each Region
                                 (FY 2011 CPMS Data)
                         Region                        Hearing Office
                   Boston                                           Portland, Maine
                   New York                                     Jericho, New York
                   Philadelphia                         Elkins Park, Pennsylvania
                   Atlanta                                         Orlando, Florida
                   Chicago                                       Detroit, Michigan
                   Dallas                              Dallas (Down Town), Texas
                   Kansas City                                  St. Louis, Missouri
                   Denver                                      Salt Lake City, Utah
                   San Francisco                                 Honolulu, Hawaii
                   Seattle                                    Tacoma, Washington




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)   C-2
Appendix D – TRENDS IN REGIONAL AND HEARING OFFICE
             SENIOR ATTORNEY ADJUDICATORS ON-THE-
             RECORD RATES
In Fiscal Year (FY) 2011, six regions reported senior attorney adjudicators (SAA) had issued
50 percent or more of the on-the-record (OTR) decisions in their hearing offices, what we refer
to as the SAA OTR rate (see Figure D–1). The Seattle Region had the highest SAA OTR rate at
about 70 percent, whereas the Boston Region had the lowest SAA OTR rate at about 12 percent.

In FY 2012, the SAA OTR rate dropped in seven regions and increased in the Boston,
Philadelphia, and Denver Regions. Only the Seattle, Denver, Chicago, and Philadelphia Regions
had an SAA OTR rate over 50 percent. SAAs in the Denver Region issued about 70 percent of
all the OTRs in the Region, the highest in the nation. As in FY 2012, SAAs in the Boston
Region issued the lowest percent of OTRs (about 14 percent) among all the regions.

                                  Figure D–1: 2-Year Trend in Regional SAA OTR Rates
                                                  (FYs 2011 and 2012)

                                80%
                                70%
        SAA OTRs as a Percent
          of Regional OTRs




                                60%
                                50%
                                40%
                                30%
                                20%
                                10%
                                0%
                                      Boston




                                                           Philadelphia


                                                                          Atlanta
                                               New York




                                                                                     Chicago




                                                                                                        Kansas City




                                                                                                                               San Francisco
                                                                                               Dallas




                                                                                                                      Denver




                                                                                                                                               Seattle




                                                                                    Regions
                                                     FY 2011 Percent of Regional OTRs Issued by SAAs
                                                     FY 2012 Percent of Regional OTRs Issued by SAAs


2-Year Trend in Hearing Office SAA OTR Rates
We found large variances in SAA OTR rates at the hearing offices in FY 2011 (see Figure D–2).
Whereas 20 hearing offices had an SAA OTR rate greater than or equal to 75 percent in
FY 2012, this number dropped to 13 hearing offices in FY 2012. The decline in OTR rates
nationwide corresponds with our earlier analysis in the body of the report showing fewer SAA
OTRs were issued nationally and regionally in FY 2012.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                                                                  D-1
                   Figure D–2: 2-Year Trend SAA OTR Rates at Hearing Offices


                   FY 2011                                      FY 2012
           24                            20
         hearing                       hearing                                13 hearing
                                                  22 hearing                    offices
         offices                       offices      offices


                                                                                           SAA OTR Rate >=
                                                                                           to 75%
                                                                                           SAA OTR Rate >
                                                                                           50%, < 75%
                                                                                           SAA OTR Rate >
                                                                                           25 percent, < 50%
                                                 60 hearing                                SAA OTR Rate <
                                                   offices                                 25%
      50
    hearing
                               58
    offices
                             hearing                                     57 hearing
                             offices                                       offices




Virtual Screening Unit
As shown in Table D–1, the number of cases screened by SAAs declined between FYs 2011 and
2012, though Virtual Screening Unit (VSU) case screening increased. 1 Nonetheless, the number
of OTRs resulting from the VSU screening declined as well from FY 2011 to FY 2012,
indicating the higher volume of screening in FY 2012 could not identify the same proportion of
OTRs compared to FY 2011. In both FYs 2011 and 2012, VSU screening identified a higher
rate of OTRs among screened cases than the non-VSU SAAs in hearing offices. This may relate
to the nature of the cases being screened. VSU SAAs focused on backlogged hearing offices, so
the cases may be older than those being screened by non-VSU SAAs at each hearing office.




1
 The VSU consists of up to100 SAAs from around the country who work from their home offices and review
screened cases from other parts of the country, particularly cases from backlogged hearing offices.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                     D-2
        Table D–1: Comparing SAA Screening and OTR Rates (Non-VSU versus VSU)
                                                                                                  Percent of
                                              Percent of Non-
          Non-VSU SAA                                              SAA VSU                           VSU
                               Non-VSU             VSU                             SAA VSU
  FY          Cases                                                 Cases                         SAA OTRs
                              SAA OTRs        SAA OTRs per                          OTRs
            Screened1                                              Screened                        per Cases
                                              Cases Screened
                                                                                                   Screened
 2011         187,019           41,492             22.2%             37,376         11,765           31.5%
 2012         150,852           27,784             18.4%             40,649          9,638           23.7%
Note 1: Non-VSU screening and decisions include by SAAs, HODs, group supervisors, regional attorneys, writers,
and other hearing office personnel.




 Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)                    D-3
Appendix E – QUESTIONNAIRE TO SELECTED HEARING
             OFFICES
We contacted hearing office directors in 20 hearing offices—2 per region—to identify on-the-
record (OTR) processing trends, senior attorney adjudicator (SAA) training needs, and other
SAA duties. We provide our results in Table E–1.

                    Table E–1: Hearing Office Questionnaire Responses
                                                        Number of      Percent of
             Question/Response Options
                                                        Responses     Respondents
                            What duties do your SAA’s Perform?
                          (More than one category can be selected)
  Adjudicating OTR Decisions                                20           100%
  Case Screening                                            20           100%
  Mentoring Less Experienced Attorney and
                                                            18            90%
  Paralegal Analysts
  Writing More Difficult Decisions                          17            85%
                   How many SAAs employed at the hearing office?
  1-3                                                        7            35%
  4-6                                                        9            45%
  7 or more                                                  4            20%
                    Who screens cases for possible OTR decisions?
                       (More than one category can be selected)
  ALJs                                                      18            90%
  Group Supervisors                                         12            60%
  Master Docket Clerk                                        4            20%
  SAAs                                                      19            95%
  Other                                                     10            50%
             After screening, how are OTR cases rotated among ALJs?
                       (More than one category can be selected)
  Assigned by code                                           0             0%
  Assigned randomly                                          3            15%
  Assigned to a specific ALJ who agrees to do OTRs           6            30%
  Cases are not assigned to ALJs                             5            25%
  Other                                                     10            50%
             After screening, how are OTR cases rotated among SAAs?
                       (More than one category can be selected)
  Assigned by code                                           3            15%
  Assigned randomly                                          7            35%
  Assigned to a specific SAA who agrees to do OTRs           5            25%
  Cases are not assigned to SAAs                             0             0%
  Other                                                      9            45%



Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)        E-1
                                                                 Number of            Percent of
               Question/Response Options
                                                                 Responses           Respondents
   How are OTR requests from claimant representatives assigned in the hearing office?
                     (Assuming the cases have not been assigned to ALJ)
                           (More than one category can be selected)
  Assigned randomly to ALJs                                   2               10%
  Assigned to specific ALJs                                   2               10%
  Assigned randomly to SAAs                                   9               45%
  Assigned to specific SAAs                                   4               20%
  Other                                                       9               45%
   Has the hearing office or regional management established productivity goals?
                        (More than one category can be selected)
  Yes                                                        16               80%
  No                                                          5               25%
  In what way have the SAAs in your offices assisted with timely case processing?
                        (More than one category can be selected)
  To a great extent                                           7               35%
  To a moderate extent                                        8               40%
  To a small extent                                           2               10%
  The initiative made no discernible change in office
                                                              1                5%
  timeliness
  The initiative had a negative effect on office
                                                              1                5%
  timeliness
  Other                                                       4               20%
       In what way have the SAAs in your offices assisted with productivity?
                        (More than one category can be selected)
  To a great extent                                           5               25%
  To a moderate extent                                        7               35%
  To a small extent                                           6               30%
  The initiative made no discernible change in office
                                                              2               10%
  productivity
  The initiative had a negative effect on office
                                                              1                5%
  productivity
  Other                                                       3               15%




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)            E-2
                                                                 Number of            Percent of
               Question/Response Options
                                                                 Responses           Respondents
   Do you use any management information reports to show the effect of your SAAs on
                              the workload in your hearing office?
  Yes                                                         19              95%
  No                                                           1               5%
    If regulations could be modified, what additional duties would you add to an
                                  SAA’s responsibilities?
                       (More than one category can be selected)
  Processing/deciding non-disability workloads                13              65%
  Processing/issuing dismissals                               11              55%
  No additional duties would be added                          2              10%
  Other                                                        6              30%
        Have any of the current SAAs in the offices participated in the VSU?
  Yes                                                         16              80%
  No                                                           4              20%
         Check those areas where Headquarters or your region has provided
                                  training to your SAAs
                       (More than one category can be selected)
  Adjudicating OTR decisions                                  14              70%
  Mentoring less experienced attorneys and paralegal
                                                               1               5%
  analysts
  Screening cases                                             13              65%
  Writing the more difficult decisions                         2              10%
  No training has been provided                                2              10%
  Other                                                        5              25%
               Check those areas where you believe additional training
                             for your SAAs would beneficial
                       (More than one category can be selected)
  Adjudicating OTR decisions                                   2              10%
  Mentoring less experienced attorneys and paralegal
                                                              11              55%
  analysts
  Screening cases                                              5              25%
  Writing the more difficult decisions                         9              45%
  No additional training is necessary                          6              30%
  Other                                                        2              10%




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)            E-3
Appendix F – AGENCY COMMENTS




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)   F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"EFFECTS OF THE SENIOR ATTORNEY ADJUDICATOR PROGRAM ON
HEARING WORKLOADS" (A-12-13-23002)

Recommendation 1

Evaluate the benefits of conducting focused quality reviews on ALJ and SAA OTR decisions
using a consistent set of criteria so results are comparable. In this way, common OTR issues can
be identified and appropriate training developed.

Response

We agree. By the end of October 2013, we plan to conduct a focused quality review using a
consistent set of criteria to gain a better understanding of the issues identified with the
administrative law judge (ALJ) on-the-record (OTR) decisions compared to senior attorney
adjudicator (SAA) OTR decisions. The results of the review will assist us in determining if we
need to develop any new ongoing ALJ and SAA OTR reviews or create additional specialized
training for OTR decisions. We will also continue to evaluate a random sampling of hearing-
level decisions, including ALJ OTR decisions, to identify any errors or corrective actions.

We are also planning in-line reviews of ALJ and SAA decisions, not limited to OTR decisions.
These reviews will identify ALJ and SAA compliance with the Electronic Business Process and
our policy. During the first phase, we will review ready-to-schedule claim files and SAA
decisions in six regional offices. For the next phase, we will conduct reviews that cover all
regional offices and will include ALJ draft decisions written by decision writers. We expect the
review will identify errors and we will take any necessary actions. In addition, our review will
highlight training needs for SAAs and decision writers to provide timely and legally sufficient
decisions.

We will evaluate our recent quality review findings to determine if there is sufficient data to
identify any other areas of concern in ALJ and SAA OTR decisions that will assist us to improve
consistency and training.

Recommendation 2

Ensure additional training is available to SAAs in those areas identified in our report, including
mentoring for attorneys and paralegal specialists, as appropriate.

Response
We agree. We will develop additional mentoring programs, training, and resources. In 2013, we
started developing a decision writer (DW) mentoring program similar to our program for ALJs
and senior case technicians. The DW Mentoring Guide includes expectations for management,
the mentee, and the mentor.

We also developed tools and offer the following to assist SAAs write decisions that are difficult,
screen cases, and adjudicate OTR decisions:

Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)         F-2
    •   Training materials are available for all writers, including DWs and SAAs on a SharePoint
        site. The training materials serve as a reference tool or as a self-study tool.
    •   Employees detailed to the Virtual Screening Unit attend a 5-day training session. Many
        SAAs have attended this training.
    •   The quarterly interactive video tele-training series, “ODAR Continuing Education
        Program,” provides supplemental training on substantial policy issues beyond the scope
        of initial programmatic training. These training sessions are mandatory for SAAs, ALJs,
        and DWs. They are available post broadcast in video-on-demand, with scripts and
        training materials available for reference at: http://odar.ba.ssa.gov/hq-
        components/ocalj/chief-judge-resources/ocep/.

We will instruct staff on how to access these and other related tools for SAA training.

Recommendation 3

Consider expanding SAAs’ duties to assist hearing offices with case processing, such as
adjudicating non-disability cases and dismissals.

Response

We agree. However, expanding the SAAs’ duties as suggested will require regulatory changes.

Recommendation 4

Align existing SAA positions with predicted workloads and related duties before making
additional promotions to the SAA position.

Response

We agree. We are actively assessing the best use of our SAAs. We plan to pilot a program in
the first quarter of fiscal year 2014 to centrally select cases for SAA screening. As part of the
pilot program, SAAs would only screen cases with the highest likelihood of allowance.
Additionally, we would implement enhanced controls over the SAA screening process to ensure
a proper mix of SAA screening time compared to other SAA duties.




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)        F-3
Appendix G – MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Nicholas Milanek, Audit Manager, Crystal City Audit Office

Parham Price, Auditor-in-Charge

Mary Ann Braycich, Senior Program Analyst

Faisal Khan, Auditor




Effects of the Senior Attorney Adjudicator Program on Hearing Workloads (A-12-13-23002)   G-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
